                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




          We received an allegation regarding possible conflicts of interest, unapproved changes in scope and
          abuse of faculty release time in connection with an a NSF award to a university.' Investigation
          revealed no substance to these issues. However, a review of faculty release time records indicated
          that there may have been violations of NSF's 219 rule in the subject award as well as in other NSF
          awards. This rule provides that during the summer, a researcher may not receive from all NSF
          sources more than 219 ofhis base salary. At our request, the university conducted an review ofNSF
          payments of summer salary. This review uncovered more than $250,000 in mischarged salary,
          including associated benefits and indirect costs. The university reimbursed NSF for the mischarged


          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
